           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    ELECTRONIC FILE ASSEMBLY

      June 2009 A-07-09-19069




   EVALUATION
     REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      June 26, 2009                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Electronic File Assembly (A-07-09-19069)


           OBJECTIVES

           Our objectives were to (1) assess the results of the Social Security Administration’s
           (SSA) Electronic File Assembly (ePulling) pilot project and (2) determine whether the
           assessment procedures were effective in deciding when the Office of Disability
           Adjudication and Review's (ODAR) hearing offices were ready to implement ePulling. 1

           BACKGROUND
           SSA’s Deputy Commissioner for ODAR oversees SSA’s national hearings and appeals
           operation of over 6,000 employees, including over 1,100 administrative law judges
           (ALJ). ODAR consists of a Headquarters complex that houses the Agency’s Appeals
           Council and its support staff, 10 regional offices, 141 hearing offices and 2 national
           Hearing Centers. ODAR conducts due process hearings and appellate reviews, and
           issues decisions on appealed Retirement, Survivors, Disability, and Supplemental
           Security Income determinations. ODAR issues over 500,000 hearing decisions each
           year and is considered one of the largest administrative judicial systems in the world.

           The number of cases awaiting a decision from an ALJ has risen from over 463,000 at
           the end of Fiscal Year (FY) 2002 to over 767,000 at the end of January 2009. To
           address this backlog of disability cases, ODAR has implemented, or is implementing,
           several initiatives to improve hearing office procedures, increase adjudicatory capacity,
           and increase efficiency with automation and improved business processes. 2




           1
            On December 9, 2008, we issued an early alert to the Commissioner on the preliminary results of this
           evaluation.
           2
            SSA ODAR, Plan to Eliminate the Hearing Backlog and Prevent Its Recurrence, page 1, Semiannual
           Report FY 2008.
Page 2 - The Commissioner

EPulling is one of ODAR’s initiatives. ODAR expects file preparation using ePulling to
be an improvement over its traditional file preparation process, which requires manual
organization of documents in the electronic folder (EF). Specifically, hearing office
staff, typically Senior Case Technicians (SCT), review the EF and identify the relevant
documents for the ALJ to consider in making a decision. The SCTs manually enter
relevant information into the EF, such as the type of document (that is, medical record),
the source of the document (that is, medical provider), and the document’s beginning
and ending dates. The SCTs then use this information to sort and reorder the
documents, identify duplicate documents, and prepare an exhibit list for the hearing.
The exhibit list identifies the documents in the EF that will be presented and entered
into the record at the hearing.

File preparation using ePulling software automates the manual organization of
documents in the EF. Specifically, ePulling software

      •   identifies and records relevant information (type of document, the source of the
          document, and the to and from dates of the document) for each page in the EF;

      •   identifies potential duplicate documents and sequentially numbers pages in the
          EF; and

      •   allows staff reviewing the EF to identify a specific type of document (such as
          X rays).

ODAR expects ePulling to increase the efficiency of the EF preparation process and
reduce the time it takes to prepare a case for hearing. ODAR estimates that ePulling
may result in an annual reduction of 402 work-years 3 and a savings of $16.6 million. 4
ODAR is piloting ePulling at the National Hearing Center in Falls Church, Virginia, and
Hearing Offices in Tupelo, Mississippi; St. Louis, Missouri; Mobile, Alabama;
Minneapolis, Minnesota; and Richmond, Virginia.

For our review, we interviewed ODAR's ePulling Project Manager as well as members
of the ePulling cadres (the hearing office directors, group supervisors, ALJs, decision
writers, and employees who prepared cases using ePulling) in the Tupelo, Mississippi,
and Minneapolis, Minnesota, Hearing Offices. We also analyzed information ODAR
collected on the ePulling pilot project including accuracy rates and case preparation
times. Finally, we analyzed ODAR’s methodology for assessing the results of ePulling.
Additional information on our scope and methodology can be found in Appendix B.




3
    A work-year is the amount of productive time provided by an employee working full time for 1 year.
4
 SSA ODAR, ODAR Case Preparation Initiative (Image Management Software), IT Proposal – Fiscal Year
Consideration: 2008.
Page 3 - The Commissioner

RESULTS OF REVIEW
Based on our assessment of the results of the ePulling pilot project, ODAR is facing
challenges with the accuracy of the ePulling software, which in turn is increasing
ePulling’s case preparation times. In addition, ODAR needs to establish a sufficient
assessment methodology for measuring ePulling’s impact on the hearings process.
This assessment methodology is critical to future decisions on expanding the use of
ePulling to other hearing offices.

THE ePULLING PILOT PROJECT

From June through December 2008, ePulling was used to prepare the files for
773 cases. To monitor the ePulling pilot, ODAR (1) assessed ePulling’s accuracy in
extracting page information from documents in the EF and (2) collected information
from the pilot site participants on case preparation times using ePulling. We analyzed
the information ODAR collected and conducted interviews with selected hearing offices.

Accuracy
                                         5
For each page in the EF, the contractor was supposed to design the ePulling software
to accurately identify the type of document (that is, a medical record), source of the
document (that is, a medical provider), and beginning and ending dates of the
document. According to the contract, the software should consistently identify this
page-level information correctly at least 90 percent of the time.

The 773 cases prepared using ePulling contained 250,938 pages. For each page,
ODAR assessed the ePulling software’s accuracy in identifying four categories of
information: type of document, document’s source, document’s beginning date, and
document’s ending date. ODAR found that multiple corrections were required for the
pages processed. In fact, 433,790 corrections were required for the 250,938 pages
processed. As shown in Table 1 on the following page, ePulling accurately identified
page-level information about 57 percent of the time.




5
    SSA has contracted with eCompex, Inc., to provide document image processing software.
Page 4 - The Commissioner


                              Table 1: ePulling Accuracy Rates
         Page-Level Information         Total         Pages            Pages
        Identified by the ePulling      Pages       Processed        Requiring      Accuracy
                                                                                          6
                 Software             Processed     Accurately       Correction      Rate
            Type of Document           250,938       163,267           87,671         65%
           Source of Document          250,938       170,650           80,288         68%
       Beginning Date of Document      250,938       122,453          128,485         49%
         Ending Date of Document       250,938       113,592          137,346         45%
                 Totals               1,003,752      569,962          433,790          57%


ODAR worked with the software contractor to make enhancements aimed at improving
the accuracy of the ePulling software. Since June 2008, the contractor has made five
enhancements to the ePulling software. To determine whether the enhancements
improved the accuracy of the software, ODAR processed the same 10 cases through
each ePulling software enhancement. In addition to the 10 cases repeatedly tested,
ODAR selected 5 to 10 new cases to test each enhancement. Using the accuracy rates
derived from these 15 to 20 cases, ODAR computed the accuracy of the ePulling
software enhancements. As shown in Table 2, following the January 2009
enhancement, the accuracy rates computed from this limited number of cases in the
areas of type of document (65 percent) and source of document (75 percent) show
accuracy rates comparable to the rates ODAR calculated for the 773 cases (see
Table 1). In the area of dates of document (64 percent), the accuracy rates were
slightly better for the 15 to 20 cases as compared to the accuracy rates reported for the
773 cases, which was in the 40-percent range. However, accuracy rates declined
between June 2008 and January 2009. In addition, the accuracy rates based on the
accuracy rates in Tables 1 and 2 show that the ePulling software accuracy was not
within the 90-percent target goal.

               Table 2: ePulling Software Enhancement Accuracy Rates
                                                                             Beginning and
         ePulling Software            Type of           Source of           Ending Dates of
           Enhancement               Document           Document               Document
             June 2008                 76%                84%                     96%
             July 2008                 70%                82%                     80%
            August 2008                70%                82%                     80%
           October 2008                66%                68%                     84%
           January 2009                65%                75%                     64%




6
 Accuracy rates are computed by dividing the number of pages processed correctly by the number of
pages processed.
Page 5 - The Commissioner

Case Preparation Times

We interviewed six employees in the Tupelo, Mississippi, Hearing Office and three
employees in the Minneapolis, Minnesota, Hearing Office who prepared cases using
ePulling. All nine employees stated that ePulling increased case preparation time when
compared to the traditional EF preparation process.

      The employees in the Tupelo Hearing Office stated it takes between 3 and
       4 hours to prepare a file using ePulling compared to about 1.5 to 2 hours using
                                               7
       the traditional EF preparation process.
      The employees in the Minneapolis Hearing Office stated it takes about 3 hours to
       prepare a file using ePulling while it takes 1 to 2 hours using the traditional EF
       preparation process. 8

The employees stated the additional time is attributable to problems the ePulling
software has in correctly identifying and classifying documents (based on the type,
source, and dates of the documents). As a result, most documents processed by the
ePulling software require time-consuming correction. However, the hearing office staff
we interviewed were receptive to using ePulling and stated that if the accuracy
problems were corrected, the software would be beneficial to the hearings process.

In addition to our interviews, we analyzed data ODAR collected on case preparation
times at the pilot sites. For 523 of the 773 cases where ePulling was used for file
preparation, ODAR employees recorded the time expended to prepare each case using
          9
ePulling. ODAR’s compilation of the information showed that the average case
preparation times for the pilot sites ranged from 2.5 to 4.9 hours per case. 10 The
following table shows the case preparation times by pilot site for the 523 cases.


7
  These times are based on estimates provided by the employees we interviewed. The hearing offices did
not maintain documentation to support case preparation times with or without ePulling. During our
interviews, employees stated they were experiencing computer performance slowdowns. To correct this
issue, ODAR has plans to upgrade the hearing office computer equipment.
8
 The Minneapolis Hearing Office stated that it takes 1 hour or less using the streamlined EF preparation
process. The streamlined EF preparation process does not include purging duplicate documents and
organizing evidence chronologically, as is done with the traditional EF process. Therefore, streamlined
case folder preparation takes less time than the traditional EF preparation process. The streamlined EF
process was introduced as an initiative to reduce the hearing backlog by increasing ALJ hearing docket
capacity.
9
 Employees had not recorded time expended on the remaining 250 cases as of December 2008 because
case preparation was not yet complete.
10
  Average case preparation time includes the time required to review ePulling’s accuracy for each page in
the EF and prepare spreadsheets that show the before and after results of ePulling, as well as the time
required to prepare a survey for each case tested. We did not review the impact these activities had on
the average case preparation time, because ODAR was unable to quantify the time attributed to these
activities.
Page 6 - The Commissioner

                   Table 3: Case Preparation Times by ePulling Pilot Site
                        Tupelo,    Minneapolis,    Mobile,     St. Louis,    Richmond,     Falls Church,
     Pilot Sites          MS           MN           AL             MO            VA              VA

 Number of Cases
     Prepared             231           81            69           56            53              33
  Average Case
 Preparation Time
      (hours)            2.50          2.75          3.25         4.25          4.55            4.90

According to ODAR, the average traditional EF preparation times do not exist by pilot
site. Comparison, by pilot site, between case preparation times using ePulling and
traditional EF preparation times would have shown the true impact on file preparation
times at each of the six pilot sites.

To assess the impact ePulling has on EF preparation times, ODAR informed us it is
using 3 hours as the average traditional EF preparation time. As shown in Table 3, four
of the six pilot sites are exceeding the 3-hour traditional EF preparation time when
preparing cases using ePulling. The 3-hour average was obtained from an April 2008
Office of Quality Performance (OQP) survey of the ODAR business process. OQP
derived the 3-hour average case preparation time based on interviews with a limited
number of ODAR’s workforce. Specifically, OQP interviewed one individual at each of
eight hearing offices and several individuals from ODAR’s Headquarters in
Falls Church, Virginia. None of the eight hearing offices included in the survey
                                   11
participated in the ePulling pilot. In addition, OQP stated that when the survey was
conducted, ODAR was facing performance issues with eView and the Case Processing
Management System (CPMS). 12 As a result, case preparation times may have been
higher than normal. Therefore, we could not determine whether the OQP 3-hour
estimate of the time to prepare a traditional EF can be improved upon.

To ensure ePulling does not increase EF preparation time, SSA should consider
developing an estimate for the time it takes to prepare a case under the traditional EF
preparation process based on an analysis of quantifiable historical data. We believe
SSA should consider whether historical data can corroborate or improve the current
OQP 3-hour case preparation time estimate. SSA may be able to improve the
assessment of ePulling’s impact on hearing office productivity by analyzing quantifiable
historical data related to the time it takes to prepare a case under the traditional EF
preparation process.


11
    OQP selected the following eight hearing offices to be interviewed: Wichita, Kansas; Orland Park,
Illinois; Huntington, West Virginia; Portland, Oregon; Albany, New York; Fort Worth, Texas; Chattanooga,
Tennessee; and Billings, Montana.
12
  EView is SSA’s application that enables users involved in case processing to view, print, and take
specified actions on the disability information contained in the EF. CPMS is ODAR’s web-based
application which includes a centralized secure repository of data.
Page 7 - The Commissioner

ASSESSMENT PROCEDURES FOR ePULLING
We found that ODAR had not established adequate assessment procedures for
identifying and measuring ePulling’s impact on hearing office productivity. Without
adequate assessment procedures, ODAR cannot accurately identify when hearing
offices are ready to implement ePulling. First, and as previously discussed in this
report, SSA may be able to improve the assessment of the impact of ePulling EF
preparation times by improving the 3-hour average traditional EF preparation time
estimate. Second, management information needed to assess ePulling’s impact to
hearing office productivity was not collected. Third, the ePulling test case selection
process may not result in case preparation times reflective of the hearing office
workload.

Impact on Hearing Office Productivity

ODAR has not established procedures to ensure that management information needed
to adequately assess the success of ePulling was collected. For example, ODAR
expects ePulling’s filtering function—that allows the identification of a specific type of
document (such as X rays)—to result in significant savings for decision writers and
ALJs. However, procedures were not established to measure ePulling's impact on
decision writers’ and ALJs’ ability to process claims timely. Therefore, ePulling’s impact
on the productivity of the entire hearing office could not be measured. However, during
our evaluation, SSA arranged for Booz Allen Hamilton (BAH) to perform an impact
assessment of ePulling.

BAH began identifying a methodology for measuring the success of the ePulling
initiative in December 2008. To provide ODAR the information needed to shape the
future of ePulling, BAH will work with ODAR to

•   identify all parts of the ODAR business process where the potential exists for
    ePulling to provide benefits,
•   develop a methodology to measure the benefit in the ePulling pilot sites, and
•   gather information to measure ePulling's impact on ODAR's entire business
    process.

ePulling Test Case Selection Process

To assess the impact of ePulling on the hearings process, it is critical for ODAR to
identify the difference between the amount of time hearing office staff spend preparing
an ePulling case as compared to the amount of time staff spend under the traditional
EF preparation process. Under the ePulling pilot, the cases selected for preparation
were not based on any statistical process but rather left to the judgment of each pilot
site. ODAR provided a general guideline that only EF cases containing 300 pages or
Page 8 - The Commissioner

less be included in the pilot. 13 ODAR could not provide the percentage of total cases
processed by hearing offices that were 300 pages or less. Therefore, the pilot testing
of cases with 300 pages or less may not represent the hearing office workload from a
case size perspective. Further, measuring the time captured from only smaller sized
cases may not be appropriate to assess ePulling’s impact on hearing office productivity.

CONCLUSION AND RECOMMENDATIONS
Based on the 773 cases prepared using the ePulling software, ODAR faces challenges
with the accuracy of the software, which results in increased ePulling case preparation
times. For the ePulling software to benefit the hearings process, it cannot result in
increased case preparation times.

ODAR has arranged for BAH to develop an assessment methodology to measure the
success of the ePulling initiative including the impact on hearing office productivity. Our
report offers additional procedures that should be included in the assessment
methodology.

We recommend that SSA:

1. Perform a complete assessment of the ePulling pilot project results before
   expanding the use of ePulling to other hearing offices. The assessment should
   ensure that ePulling will not adversely affect file preparation time or any other aspect
   of the hearings process.

2. Consider if historical data can corroborate or improve upon the current 3-hour case
   preparation time estimate used to assess ePulling’s impact on hearing office
   productivity.

3. Determine whether the ePulling pilot testing should also include cases with more
   than 300 pages.




13
  ODAR’s guidelines stated that cases to be tested should not contain a prior disability application file and
the medical evidence section should not contain more the 250 pages. In addition, the cases selected
should not be Appeals Council remands and disability cessations.
Page 9 - The Commissioner

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix C.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
ALJ        Administrative Law Judge
BAH        Booz Allen Hamilton
CPMS       Case Processing Management System
ePulling   Electronic File Assembly
EF         Electronic Folder
FY         Fiscal Year
ODAR       Office of Disability Adjudication and Review
OQP        Office of Quality Performance
SCT        Senior Case Technician
SSA        Social Security Administration
                                                                                   Appendix B

Scope and Methodology
We evaluated the Social Security Administration’s (SSA) Electronic File Assembly
(ePulling) pilot project results and assessment procedures to determine whether they
were sufficient to decide when the Office of Disability Adjudication and Review's
(ODAR) hearing offices were ready to implement ePulling. To accomplish our
objectives, we:

•   Reviewed the budgeted and expended SSA funding to develop ePulling.
•   Reviewed the user requirements established for the ePulling project.
•   Reviewed system development documentation to obtain an understanding of how
    ePulling integrates into existing SSA computer systems.
•   Reviewed ODAR’s estimation of expected time savings using ePulling versus the
    current process.
•   Analyzed ODAR’s methodology for testing and assessing the ePulling pilot.
•   Determined how hearing offices, personnel, and ODAR case workload were
    selected to participate in the ePulling pilot.
•   Analyzed the accuracy rate and processing time of cases processed using ePulling.
•   Reviewed the ePulling training provided to the pilot hearing offices’ staff.
•   Interviewed ODAR staff at the Tupelo, Mississippi, and Minneapolis, Minnesota,
    Hearing Offices to obtain their experiences with ePulling.
•   Identified outstanding problems with the performance of ePulling software and
    ODAR’s planned resolution.
•   Determined whether SSA has procedures in place to communicate ePulling
    software deficiencies with the contractor for correction.

We performed our field work in the Kansas City, Missouri, Office of Audit; SSA
Headquarters in Baltimore, Maryland; and Hearing Offices in Tupelo, Mississippi, and
Minneapolis, Minnesota, from September 2008 through January 2009. We conducted
this evaluation in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency. 1




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No. 110-
409 § 7, 5 U.S.C. App. 3 § 11.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      June 01, 2009                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General


From:      James A. Winn       /s/
           Chief of Staff


Subject:   Office of the Inspector General (OIG) Draft Report, “Electronic File Assembly”
           (A-07-09-19069)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. We have attached our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “ELECTRONIC FILE ASSEMBLY” (A-07-0-19069)

In general, we agree with the report and recommendations and provide responses to the specific
recommendations below. We agree with the basic finding of the report that we need to perform a
complete assessment of the project before expanding the use of the software in other offices.
Staff from the Office of Disability Adjudication Review, the Office of Systems, and contractors
from Booz-Allen Hamilton will visit all of the pilot offices in June 2009 to further assess the
effectiveness of the software. Consistent with the basic findings of the report, this assessment
will be a critical element in deciding if we should continue to develop ePulling.

Recommendation 1

Perform a complete assessment of the ePulling pilot project results before expanding the use of
ePulling to other hearing offices. The assessment should ensure that ePulling would not
adversely affect file preparation time or any other aspect of the hearings process.

Comment

We agree. We will not expand the use of ePulling until we are convinced that it will have a
positive impact on hearing office productivity. This has been our position since the beginning of
the pilot, and we remain committed to it. Our Office of Systems and the vendor have made
numerous software enhancements, and we will assess the effect of these enhancements on
productivity before we make a decision on expansion.

Recommendation 2

Consider if historical data can corroborate or improve upon the current 3-hour case preparation
time estimate used to assess ePulling’s impact on hearing office productivity.

Comment

We agree in principle. As the report notes, we are trying to identify accurate measures of the
impact of ePulling on hearing office productivity. We have restructured our data collection
surveys to obtain more complete information, and we are working with Booz-Allen Hamilton to
identify assessment metrics. One element of our work with Booz-Allen Hamilton may include
consideration of historical data in identifying metrics to assess the impact on hearing office
productivity. We also are planning a study aimed at measuring the time it takes an ePulling cadre
member to pull the same case using the normal pulling method versus ePulling.




                                               C-2
Recommendation 3

Determine whether the ePulling pilot testing should also include cases with more than 300 pages.

Comment

We agree. After discussing this recommendation with the pilot offices, we have included a
cohort of larger cases. We have not yet analyzed the effect of including these larger cases.




                                               C-3
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division

   Ron Bussell, Audit Manager

Acknowledgments

In addition to those named above:

   Ken Bennett, IT Specialist

   Doug Kelly, Senior Auditor

For additional copies of this report, please visit our website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-09-19069.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security

Office of Management and Budget, Income Maintenance Branch

Chairman and Ranking Member, Committee on Ways and Means

Chief of Staff, Committee on Ways and Means

Chairman and Ranking Minority Member, Subcommittee on Social Security

Majority and Minority Staff Director, Subcommittee on Social Security

Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives

Chairman and Ranking Minority Member, Committee on Oversight and
  Government Reform

Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives

Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives

Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Committee on Finance

Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy

Chairman and Ranking Minority Member, Senate Special Committee on Aging

Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
